                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




          We received an allegation of plagiarism1 in an NSF proposal2 submitted by the subject3 The
          complainant provided examples of copied text fiom a recent book that was published. Although
          there were similarities in phrases, there appeared to be sufficient paraphrasing of the text. Our
          evaluation showed insufficient substance to support the allegation of research misconduct.

          Accordingly, this case is closed and no further action will be taken.




NSF OIG Form 2 (I 1/02)
